<html>
<title> - LOBBYING ACCOUNTABILITY AND TRANSPARENCY ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                      LOBBYING ACCOUNTABILITY AND 
                        TRANSPARENCY ACT OF 2006

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4975

                               __________

                             APRIL 4, 2006

                               __________

                           Serial No. 109-96

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-911                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

TRENT FRANKS, Arizona                JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MARK GREEN, Wisconsin                CHRIS VAN HOLLEN, Maryland
STEVE KING, Iowa
TOM FEENEY, Florida

                     Paul B. Taylor, Chief Counsel

                      E. Stewart Jeffries, Counsel

                          Hilary Funk, Counsel

                 Kimberly Betz, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              

                             APRIL 4, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Chairman, Subcommittee on the Constitution..     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     5

                               WITNESSES

Mr. Kenneth A. Gross, Partner, Skadden, Arps, Slate, Meagher & 
  Flom, LLP
  Oral Testimony.................................................     3
  Prepared Statement.............................................     4
Mr. John H. Graham, IV, President and Chief Executive Officer, 
  American Society of Association Executives
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
The Honorable Chellie Pingree, President and Chief Executive 
  Officer, Common Cause
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
The Honorable Bradley A. Smith, Professor of Law, Capital 
  University Law School, on behalf of Center for Competitive 
  Politics
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28

                                APPENDIX
               Material Submitted for the Hearing Record

Testimony of Mark J. Fitzgibbons, President of Corporate and 
  Legal Affairs, American Target Advertising, Inc................    61


          LOBBYING ACCOUNTABILITY AND TRANSPARENCY ACT OF 2006

                              ----------                              


                         TUESDAY, APRIL 4, 2006

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Steve 
Chabot (Chairman of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come to order. This is the 
Judiciary Committee Subcommittee on the Constitution. I am 
Steve Chabot, the Chairman of the Committee. We will be joined 
shortly here by the Ranking Member, Mr. Nadler, and I want to 
welcome all the other Members for being here as well. We have 
one witness, I believe that is running a little bit late, but 
that shouldn't really affect us significantly at this time.
    I want to thank everyone again for being here at the 
Subcommittee on the Constitution. This is the legislative 
hearing on H.R. 4975, the ``Lobbying Accountability and 
Transparency Act of 2006.'' As an original cosponsor of the 
1995 Lobbying Disclosure Act, this issue has always been an 
important one to me.
    Today the Subcommittee on the Constitution will examine 
legislation that would require lobbyists to disclose more 
information more frequently. It would require that these 
increased disclosures be made available to the public on the 
Internet as soon as practically possible in a form that can be 
easily sorted and searched by the average citizen. The bill 
would also require registered lobbyists to disclose their past 
government employment over the previous 7 years to allow for 
the spotting of possible conflicts of interests. The bill also 
requires lobbyists to disclose contributions to Federal 
candidates, leadership and other PACs and political party 
committees and to disclose the recipient and amount of any gift 
that counts toward the cumulative annual limit of $100 as 
provided for under House rules.
    The bill doubles to $100,000 the civil penalty for a 
failure to report under these requirements. The bill also 
requires that the Clerk of the House give notice to Members and 
staff of the 1-year post-employment ban on lobbying activities 
and prohibits registered lobbyists from accompanying Members on 
corporate flights. The bill also requires random audits of 
lobbying reports filed by lobbyists by the House Inspector 
General, and permits the Inspector General to refer violations 
by lobbyists to the Department of Justice for prosecution, 
which puts more teeth into the enforcement of current law. 
These reforms are necessary and prudent.
    Throughout history people have paid other people to help 
them make their views known. The United States Constitution 
grants everyone the right to petition their Government for 
redress of their grievances, and today, organizations such as 
the American Association of Retired Persons, the American 
Cancer Society, the Boy Scouts, and all manner of nonprofit 
organizations also hire lobbyists. While there is nothing wrong 
with hiring help to communicate one's views, there is also much 
good in requiring that financial, political contributions by 
such organizations be made known to the American public so they 
can decide for themselves what to make of them.
    More disclosure means more information, and more 
information is always welcome in a vibrant democracy such as 
ours. This hearing today, with the help of our invited 
witnesses, will examine H.R. 4975, which seeks in a very 
practical and accessible way to provide greater transparency 
and accountability in the lobbying profession without 
infringing on people's essential right to speak freely to their 
elected officials.
    Members in this body serve in what has always been known as 
``the people's House.'' The House of Representatives is unique 
among all branches and bodies of the entire Federal Government 
because its Members must always be elected, and they serve 
limited 2-year terms so their service can be frequently 
evaluated by the voters they represent. As James Madison wrote 
in ``America'', ``The people may publicly address their 
Representatives, may privately address them, or declare their 
sentiments by petition to the whole body.'' Those rights are 
safe in this legislation.
    But it is also often said that the price of liberty is 
eternal vigilance. This legislation is designed to allow the 
American people to maintain that vigilance as easily as 
possible by providing them with more information and greater 
access to it.
    No one has a monopoly on good ideas and I look forward to 
hearing from our panel of witnesses, and also hearing from our 
colleagues on the Committee during the course of this hearing.
    I would now be happy to yield to the gentleman from 
Virginia for the purpose of making an opening statement if he 
should like to do so.
    Mr. Scott. Mr. Chairman, I ask unanimous consent that the 
Ranking Member be able to make a statement when he arrives.
    Mr. Chabot. Without objection, we'll do it. If not 
necessarily right when he arrived, at an appropriate point 
then.
    Does any other panel Member wish to make an opening 
statement? If not, we will get to our witnesses and I will 
introduce them at this time. As I mentioned before, we have one 
witness that will be coming shortly.
    Our first witness is Mr. Ken Gross, who heads the political 
law practice at Skadden, Arps, Slate, Meagher & Flom. Mr. Gross 
is a recognized expert in the field of government ethics and 
disclosure, particularly in the context of lobbying disclosure. 
Roll Call has named Mr. Gross among the outstanding lawyers in 
the who's who among the Congressional Ethics Bar. Mr. Gross is 
a graduate of the University of Bridgeport, and received his 
law degree from the Emory University School of Law.
    We welcome you here this morning, Mr. Gross.
    Mr. Gross. Thank you, Mr. Chairman.
    Mr. Chabot. Our second witness is Mr. John Graham, 
President and CEO of the American Society for Association 
Executives. ASAE provides educational resources for its 
members, and promotes the goals and interest of the association 
profession. Prior to joining the ASAE, Mr. Graham served as CEO 
of the American Diabetes Association and held several executive 
positions with the Boy Scouts of America. Mr. Graham holds a 
bachelor's degree from Franklin and Marshall College, and we 
welcome you here this morning, Mr. Graham.
    Mr. Graham. Good morning, Mr. Chairman.
    Mr. Chabot. Our third witness is the Honorable Chellie 
Pingree, President and CEO of Common Cause, which advocates for 
open and accountable government. Prior to joining Common Cause, 
Ms. Pingree served 8 years in the Maine Senate and was the 
Democratic candidate for the United States Senate for that 
State in the year 2002.
    And our fourth witness, which, again, hasn't arrived, but I 
will go ahead and introduce him now, our fourth and final 
witness is the Honorable Bradley Smith, Professor of Law at 
Capital University Law School. Professor Smith served 5 years 
as Commissioner, Vice Chairman and Chairman of the Federal 
Election Commission. As Chairman of the Commission from January 
2004 until August 2005, Professor Smith oversaw the 
administration of the Bipartisan Campaign Reform Act of 2002, 
and as such, is intimately familiar with the role that 
disclosure plays in an open democracy. He graduated from 
Kalamazoo College and received his juris doctor, cum laude, 
from Harvard Law School.
    Again, we'd like to welcome all the witnesses for their 
testimony here. Before we start, I'd like to bring to your 
attention the lights that you see before us. We have what's 
called the 5-minute rule here, which means that you all can 
testify for 5 minutes, and then there will be questions up 
here, and each of us is also limited to 5 minutes. The green 
light will be on for 4 minutes, the yellow light remains on for 
1 minute to let you know that things are kind of winding down, 
and then when the red light comes on, your time is up. I won't 
gavel you down immediately, but we'd ask you to stay within 
that timeframe if at all possible.
    And it's the practice to swear in all witnesses before it, 
so if you would please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Chabot. All witnesses have indicated in the 
affirmative, and you can all, please, be seated. Again, we 
appreciate your testimony here this morning, and, Mr. Gross, 
you're recognized for 5 minutes.

 TESTIMONY OF KENNETH A. GROSS, PARTNER, SKADDEN, ARPS, SLATE, 
                      MEAGHER & FLOM, LLP

    Mr. Gross. Thank you, Mr. Chairman. I am here to discuss 
4975. Make no mistake about it, these are difficult times for 
Congress. Today's news certainly brings added stress to the 
situation, and I am pleased that this bill has many provisions 
in it that will begin hopefully to turn the tide of the process 
here in Washington that will make it a system with greater 
disclosure.
    When we're talking about regulation of lobbying, we're 
talking about first amendment protected activity, core 
political speech. So the only way that we can regulate it is 
through the disclosure process. And what this bill does, as you 
had mentioned in your opening statement, is it really does 
three things: it increases disclosure, it increases 
accessibility and the timeliness, with quarterly reports. With 
a much tighter lag time, that's a very helpful thing, just 
getting the information out on the street.
    In terms of disclosure of gifts, in terms of disclosure of 
political contributions right on the report, those are, I 
think, very useful pieces of information in the entire process 
of the transparency of lobbying, and all gifts are in this 
bill, those who are over $10 disclosed right on the lobby 
report. The electronic filing, obviously, is something that is 
a significant improvement. So all that, I think, brings greater 
transparency, and I support it.
    In terms of enforcement, I know that there have been 
proposals for stronger enforcement, other, you know, Office of 
Public Integrity, et cetera. What this bill does with the 
Inspector General I think will certainly be sufficient in terms 
of getting lobby disclosure out on the table. My experience 
representing many lobbyists is that they're not disclosure shy. 
Obviously, we have bad apples, but the overwhelming percentage 
of lobbyists is that they tell me what the rule--tell me what 
the rule is. We'll put it out on the report, and we'll get it 
out in a timely fashion.
    With the specter of random audits, if it is done properly, 
and it becomes a real part of the enforcement process, that 
should do it in terms of quality enforcement. It's not going to 
take--this is a handful of provisions. We're talking about 
title I, title IV in this bill. It's going to take more than 
just a handful of provisions. This Committee has limited 
jurisdiction, but this is a piece of the puzzle. You know, 
there are other critical elements, the lawmaking process 
itself, the disclosure, the transparency of earmarking, et 
cetera. These provisions should fit well into those provisions 
and hopefully begin to turn the tide and restore confidence to 
the American people in the process.
    [The prepared statement of Mr. Gross follows:]

                 Prepared Statement of Kenneth A. Gross

    Good morning Chairman Chabot, Ranking Member Nadler, and Members of 
the Judiciary Subcommittee on the Constitution. Thank you for the 
opportunity to appear before you today to discuss the merits of H.R. 
4975, the ``Lobbying Accountability and Transparency Act of 2006.''
    My name is Ken Gross. I am a partner at Skadden, Arps, Slate, 
Meagher & Flom LLP, where I head the firm's political law practice. I 
specialize in compliance with campaign finance, lobbying, and ethics 
laws. Prior to Skadden, I was head of enforcement in the General 
Counsel's Office of the Federal Election Commission.
    H.R. 4975 is, overall, a constructive step toward positive reform 
of the federal lobbying law. By emphasizing increased disclosure, the 
bill succeeds in effecting practical change in the way lobbying 
activities are reported and monitored in our nation's capital without 
infringing upon our First Amendment rights as citizens to petition our 
government for a redress of grievances.
    The bill undertakes to increase the transparency of lobbying by 
requiring more frequent disclosure with shorter lag time (days between 
the end of a reporting period and the report's due date), and by 
requiring more substantive disclosure--for example, requiring lobby 
registrants, their political action committees, and their lobbyists to 
disclose federal political contributions; requiring the reporting of 
certain gifts to Members and legislative staff made by lobby 
registrants and their lobbyists; and increasing the number of years 
that current lobbyists who are former federal officials must be 
disclosed as such on lobby reports.
    H.R. 4975 also takes great steps to increase the transparency of 
governmental decision-making by making electronic filing the standard 
and requiring reports to be searchable, sortable, and posted quickly 
for the benefit of the public.
    Although the bill does not create an independent enforcement body, 
it does increase the penalties for violations of the lobbying law, and 
it gives substantive powers to the House Office of Inspector General. 
For example, the Inspector General will conduct random audits of lobby 
reports to ensure compliance, will have the authority to refer 
potential violations to the Department of Justice, and will review and 
report on the progress of the lobbying reform in action. These changes 
are very important because without a functioning enforcement mechanism, 
you can change rules but the effect of the reforms will be weakened.
    These changes only address part of the puzzle, but the regulation 
of lobbying activity is a delicate process. Lobbying is a protected 
core First Amendment right. Effective disclosure is the only viable 
method of regulation and this bill addresses shortcomings in the 
current law. I do not want to see the response to Cunningham and 
Abramoff to simply result in a lot more rules and forms for lobbyists. 
You can shine the car on the outside but if the engine is leaky inside 
you have a piece of junk. The engine is the legislative process itself. 
Some of the institutional reforms that relate to the legislative 
process are outside of this Committee's jurisdiction, but the aspects 
of reform that are before this Committee are a very constructive step 
in improving the current system. It is my sincere hope that with the 
changes proposed in H.R. 4975 under discussion here, supplemented by 
those under consideration in other Committees, it will start the 
process of restoring public confidence to a system that is currently 
under great strain.

    Mr. Chabot. Thank you very much.
    Mr. Graham, you're recognized for 5 minutes.
    I'm sorry. I'll tell you what, if you wouldn't mind, we 
won't go into your time now, but the Ranking Member is here, so 
we're going to go ahead and let him make his opening statement. 
Then we'll get to you.
    Mr. Graham. Fine.
    Mr. Nadler. Thank you, Mr. Chairman.
    Today we examine an issue that goes part way to the very 
heart of this institution's credibility and integrity, the 
urgent need to curtail the corrupting abuses and influence 
peddling that have become pervasive among some of those who 
attempt to influence Congress, and unfortunately, some of the 
Members they hope to influence. This issue's not about free 
speech, though it could be--but hopefully it isn't--or the 
right of citizens to petition their Government for redress of 
grievances. It is about the corrupting influence of money and 
our democratic process.
    All citizens should have an equal voice in speaking to 
Congress, whether for personal enrichment or for the means to 
acquire political power, money distorts our democracy and 
renders what we do here, at best, suspect. The recent 
indictments, convictions and resignations of leading Members of 
Congress and their staff, up to and including the former 
Majority Leader, Mr. DeLay, have cast a pall over this 
institution and over every one of us, whether we like it or 
not, whether any of us have done anything improper or not. 
Unless this Congress acts and acts effectively and with 
credibility, the public will rightly judge this institution and 
its Members harshly. The public will become only more cynical.
    One place we could start, which is not really addressed in 
any of these reform bills, is to open up our legislative 
process and adhere to our rules of procedure. Bills hundreds of 
pages long, written in the dead of night and brought to a vote 
with little or no examination by the Members, will always be an 
invitation to disaster and to corruption, because they are an 
invitation to payoffs for campaign contributions when no one is 
looking. There was a time when legislation was actually the 
result of a deliberative and bipartisan process. That is, 
regrettably, becoming the exception rather than the rule in 
this Congress. It creates a bad policy and innumerable 
opportunities for mischief.
    I must add that this lobbying reform, as mild as this bill 
is--and it's, frankly, a very halfhearted bill--or as good as 
an lobbying reform could be if we did a stronger bill, is 
totally useless without reform of the campaign finance system.
    In the film ``Braveheart,'' which our former colleague, Mr. 
Gephardt, always used to refer to, there's a scene in which the 
two armies are lined up preparing for battle, and the committee 
goes out, the king and a few of his friends on one side, and 
the rebels on the other. And they meet in the center of the 
battlefield and they negotiate, and if they come to an 
agreement, everybody goes home and there's no battle, if not, 
they go back and they have the battle. If there were only one 
army lined up on the field, one of those negotiating groups 
would have little negotiating leverage.
    The lobbying is an extension of the campaign finance 
system. If we don't have a strong system of public finance and 
get the hundreds of millions or billions of dollars given to 
buy legislation out of the system, then what we're talking 
about today is totally irrelevant.
    I do not believe that Members are corrupted by a $50 or $75 
dinner. They are corrupted by the necessity to raise large sums 
of campaign finance from private sources. If we want people to 
really have confidence in our legislative process again, we 
have got to clean up not only lobbying--that's the minor 
problem--the major problem is the campaign finance system, 
which is a metastasized cancer on our democratic system today.
    I really believe that if we don't clean it up, if we don't 
enact some sort of public finance system like the clean 
election system, then historians will eventually write, as they 
do of the Roman Republic, that they had a good 200, 250 year 
run with democracy, and then it evolved into a different 
system, and that's the direction we're heading today.
    Plainly, this legislative effort could stand--even on this 
bill--could stand a bit of openness and deliberation. We seem 
to be moving down the road again toward another partisan ``take 
it or leave it'' bill.
    Tomorrow the Committee will vote on this bill and vote to 
report it, no Subcommittee consideration. That's no way to 
bring sunshine to an institution that sorely needs it, not only 
no Subcommittee consideration, no time after this hearing till 
the markup tomorrow. The hearing is a formality just to say we 
had a hearing. There's no time for the public to digest it, for 
people to comment on the testimony, for people to incorporate 
in the bill anything that may come out of this hearing or out 
of comments that people make as a result of the hearing. The 
hearing's a sham. It's designed to say we had a hearing, but 
the markup is tomorrow. It's preordained.
    I hope I'm proved wrong, but I doubt I will be.
    I welcome our witnesses and their expertise. I hope that 
your suggestions will receive serious consideration by the 
Members of this Committee, since--obviously, they won't since 
the bill is written and will be passed as written tomorrow--and 
that we'll be able to work together to rescue our democracy, 
and again, that we will be able to work together toward a 
decent campaign finance bill, without which this is all 
meaningful.
    I thank you, Mr. Chairman, for your indulgence.
    Mr. Chabot. Thank you.
    Mr. Nadler. Excuse me--without which, this is all 
meaningless, I meant to say.
    Mr. Chabot. Do any of the witnesses still want to testify 
after that? [Laughter.]
    Mr. Graham, you're recognized for 5 minutes.

    TESTIMONY OF JOHN GRAHAM, IV, CAE, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, AMERICAN SOCIETY OF ASSOCIATION EXECUTIVES

    Mr. Graham. Thank you, Mr. Chairman. And, Congressman 
Nadler, thank you, I think. No, I thank you for the opportunity 
to be here, and other Members of the panel.
    My name is John Graham. I'm President and CEO of the 
American Society of Association Executives, ASAE. We represent 
roughly 22,000 members, the majority of whom are CEOs and other 
association professionals representing the predominantly large 
trade professional and philanthropic organizations.
    ASAE supports true reform that will provide for meaningful 
disclosure activity, needed reporting changes and elimination 
of abuses. We ask only that in its consideration of more 
stringent disclosure requirements and other reforms, Congress 
not inadvertently impede the ability of associations to carry 
out their primary missions for the public good, that Congress 
preserve its access through associations to firsthand 
information about the issues of the day and how they 
potentially impact vast constituencies of individuals across 
the country.
    Associations can be a tremendous public information source 
for Congress and other audiences. The last thing we want to see 
happen is the promulgation of new rules that effectively stymie 
access, and hence, these vital lines of communication.
    To this point in the continuing discussion of lobby reform, 
ASAE has focused its public comments on one proposal in 
particular, the proposed ban on privately funded travel, which 
we feel poses a serious threat to the exchange between Congress 
and associations at educational programs and conferences around 
the country. Realizing the jurisdiction of the House Judiciary 
and its Subcommittees, however, I will confine my remaining 
remarks to the provisions in H.R. 4975 on enhancing lobbying 
disclosure, enforcement, slowing the so-called revolving door, 
and prohibiting lobbyists on corporate flights.
    Enhancing lobby disclosure. ASAE is not opposed to 
quarterly filing requirements so long as the reporting 
processes are not overly burdensome from an administrative 
standpoint, and that the filing system is uniform for both the 
House and the Senate. Also, requiring electronic filing seems 
both appropriate and conducive to the goal of increased 
transparency. ASAE supports making all lobby disclosure forms 
publicly accessible to increase the public perception and 
understanding of the legislative process and the role of 
associations and other organizations engaged in advocacy 
efforts on behalf of their constituents.
    Enforcement. ASAE is supportive of disclosure, but 
disclosure does little good without enforcement. A good example 
of this is the IRS which has oversight of 1.8 million nonprofit 
organizations. The vast majority of tax-exempt organizations 
faithfully comply with the spirit and letter of the law in 
carrying out their important missions, but the IRS has also 
identified enforcement in the tax-exempt sector as a key 
objective, and yet, does not have the resources to enable that 
enforcement. Random audits of lobbying disclosure seem a 
responsible safeguard against complacency or incomplete 
reporting.
    ASAE supports increased oversight and enforcement of lobby 
reports, but suggests the House and Senate designate one 
oversight body to report violations by lobbyists for 
prosecution in the interest of avoiding duplicative, time-
consuming activities that could result in increased 
administrative compliance for association and other lobbyists 
as well. This designated oversight body could issue annual 
reports to both chambers of Congress.
    Slowing the revolving door. The term ``revolving door'' has 
been commonly used in discussions of lobby reform, but it 
implies to me that there are an endless number of former 
Members of Congress or staffers who leave their positions to 
take jobs as lobbyists for associations or other multi-client 
firms. I know that does happen, but it's not the norm. It's 
been my experience in 30 plus years in association management, 
including 13 as the CEO of the American Diabetes Association 
before joining ASAE, that governing boards hire the best people 
for the job. The vast majority of association CEO positions are 
filled by experienced association executives or someone with 
expertise in the industry or profession that the association 
represents. ASAE has no objection though to maintaining the 1-
year cooling off period in cases where a former Member of 
Congress is hired.
    Prohibiting lobbyists on corporate flights. ASAE supports 
the proposal in H.R. 4975 to prohibit registered lobbyists from 
accompanying Members of Congress on corporate flights because 
it cures a public concern about extravagance. I do want to 
reiterate, however, the value we see in Members of Congress 
getting outside of Washington, D.C. and engaging in truly 
educational dialogue with members of the association community 
or other constituencies with real concerns and information to 
share. ASAE believes that there should be a clear distinction 
between trips on corporate jets to exotic locales where the 
agenda is more socially or recreationally driven, and 
educational trips to an association meeting or a conference 
where an association might pay for an elected official's 
domestic plane or train ticket.
    We have suggested in our communications to Congress on this 
issue that a preapproval and disclosure process for privately 
funded congressional travel would be an amenable solution to 
the concerns about travel, while still preserving the valuable 
perspectives gained when Members of Congress attend legitimate 
educational meetings around the country.
    In conclusion, I want to thank Congress for recognizing the 
need to enhance accountability and public trust, and for 
avoiding a rush to judgment on any one proposal that may have 
resulted in unintended consequences for us all.
    H.R. 4975 is a comprehensive bill that represents input and 
feedback from a lot of Members of Congress, constituents and 
outside experts. ASAE is confident Congress will pass a good 
bill.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Graham follows:]

                Prepared Statement of John H. Graham, IV

    Chairman Chabot, Congressman Nadler, and other distinguished 
members of the subcommittee, thank you for the invitation to testify on 
the important issue of lobbying reform.
    I am John Graham, president and CEO of the American Society of 
Association Executives (``ASAE''), a 501(c)(6) tax exempt organization 
founded in 1920 and representing roughly 22,000 members, the majority 
of whom are the CEOs or senior staff professionals of trade, 
professional or philanthropic organizations in the U.S. and in 50 
countries worldwide. Among the services provided by ASAE to its members 
are education and knowledge resources, credentialing, industry 
research, and advocacy on issues that impact or threaten to impact the 
success of the association and nonprofit community.
    Lobbying is of course an important part of our political process 
and an essential function of many associations responsible for 
communicating the interests of groups of individuals, corporations, 
charitable institutions and others potentially impacted by legislation. 
According to a ``Value of Associations'' study conducted by ASAE in the 
last six months with Harris Interactive Inc. the average association 
dedicates about 14 percent of their budget to advocacy. The balance of 
a typical association's budget is heavily weighted toward education and 
public information, meeting planning, standard setting, and so on.
    Recently of course, we have all followed the media coverage about 
abuse of existing lobbying rules, and hence, we fully understand the 
need to reexamine these rules to ensure public accountability and trust 
in the political process. ASAE supports true reform that will provide 
for meaningful disclosure activity, needed reporting changes, and 
elimination of abuses. We ask only that, in its consideration of more 
stringent disclosure requirements and other reforms, Congress not 
inadvertently impede the ability of associations to carry out their 
primary missions for the public good, and that Congress preserve its 
access through associations to firsthand information about the issues 
of the day and how they potentially impact vast constituencies of 
individuals across the country. Associations can be a tremendous public 
information source for Congress and other audiences. The last thing we 
want to see happen is the promulgation of new rules that effectively 
stymie access, and hence, these vital lines of communication.
    To this point in the continuing discussion of lobbying reform, ASAE 
has focused its public comments on one proposal in particular--the 
proposed ban on privately funded travel--which we feel poses a serious 
threat to the exchange between Congress and associations at educational 
programs and conferences around the country.
    Though the issue falls outside the interest of this subcommittee, I 
do want to commend Congress for its careful deliberations on the travel 
ban and other lobbying reform proposals. While recognizing the need for 
action in this area, Congress has avoided any rush to judgment that 
might result in unintended consequences for elected officials or the 
many associations who invite lawmakers and Hill staff to speak with 
their members.
    Realizing the jurisdiction of the House Judiciary and its 
subcommittees, however, I will confine my remaining remarks to the 
provisions in H.R. 4975 on enhancing lobbying disclosure; enforcement; 
slowing the so-called ``revolving door''; and prohibiting lobbyists on 
corporate flights.

                      ENHANCING LOBBY DISCLOSURE:

    ASAE is not opposed to quarterly filing requirements so long as the 
reporting processes are not overly burdensome from an administrative 
standpoint, and that the filing system is uniform for both the House 
and Senate. Requiring electronic filing seems both appropriate and 
conducive to the goal of increased transparency. A uniform, online 
filing system would seem to support Congress's goal of creating an 
Internet database that is easily searchable by the public and reducing 
criticism that Congress and lobbyists seek to operate in a covert 
environment. ASAE supports making all lobbying disclosure forms 
publicly accessible to increase public perception and understanding of 
the legislative process and the role of associations and other 
organizations engaged in advocacy efforts on behalf of their 
constituencies.
    H.R. 4975's emphasis on increased disclosure instead of imposing 
federal limitations on lobbying offers a balance between the public's 
need to know what interests are active in various policy debates, and 
the First Amendment rights of individuals and associations to petition 
government.

                              ENFORCEMENT:

    ASAE is supportive of disclosure, but disclosure does little good 
without enforcement. A good example of this is at the IRS, which has 
oversight of 1.8 million nonprofit organizations in the U.S. The vast 
majority of tax-exempt organizations faithfully comply with the spirit 
and letter of the law in carrying out their important missions. But the 
IRS has also identified enforcement in the tax-exempt sector as a key 
objective, to deter abuse and misuse of these organizations by third 
parties for tax avoidance or other unintended purposes. We certainly 
support efforts to curb abuse in our sector, but the IRS in many ways 
lacks the resources it needs to properly enforce the laws on the books. 
If the IRS had the resources to scrutinize the nonprofits that 
disgraced lobbyist Jack Abramoff had involvement with, and whether 
contributions to these groups were used to influence lawmakers, we 
might not be having this hearing today. Lobbying is necessary, but like 
any activity, it requires regulation and enforcement to ensure that 
everyone is playing by the same rules.
    Random audits of lobbying disclosures seem a responsible safeguard 
against complacency or incomplete reporting. ASAE supports increased 
oversight and enforcement of lobbying reports, but suggests the House 
and Senate designate one oversight body to report violations by 
lobbyists for prosecution in the interests of avoiding duplicative, 
time-consuming activities that could result in increased administrative 
compliance for associations and other lobbyists as well. This 
designated oversight body could issue annual reports to both chambers 
of Congress.

                     SLOWING THE `REVOLVING DOOR':

    The term ``revolving door'' has been commonly used in discussions 
of lobbying reform, but it implies to me that there are an endless 
number of former members of Congress or staffers who leave their 
positions to take jobs as lobbyists for associations or multi-client 
firms. I know that does happen, but it's not the norm.
    It's been my experience in 30+ years in association management, 
including 13 years as CEO of the American Diabetes Association before 
joining ASAE, that governing boards or executive search committees hire 
the best person for the job. Association executives should be hired for 
their leadership abilities and professional acumen.
    The vast majority of association CEO positions are filled by an 
experienced association executive or someone with expertise in the 
industry or profession that the association represents. ASAE has no 
objection though to maintaining the one year ``cooling off'' period in 
cases where a former member of Congress is hired.

              PROHIBITING LOBBYISTS ON CORPORATE FLIGHTS:

    ASAE supports the proposal in H.R. 4975 to prohibit registered 
lobbyists from accompanying members of Congress on corporate flights 
because it cures a public concern about extravagance. Lobbyists should 
certainly be free to communicate a legislative agenda, but any 
restrictions that put that activity on a level playing field seem 
warranted and ultimately beneficial to the political process.
    I do want to reiterate, however, the value we see in members of 
Congress getting outside Washington, DC, and engaging in truly 
educational dialogues with members of the association community or 
other constituencies with real concerns and information to share. ASAE 
believes there should be a clear distinction between trips on corporate 
jets to exotic locales where the agenda is more socially or 
recreationally driven, and educational trips to an association meeting 
or conference, where an association might pay for an elected official's 
domestic plane or train ticket.
    We have suggested in our communications to Congress on this issue 
that a pre-approval and disclosure process for privately funded 
congressional travel would be an amenable solution to concerns about 
travel, while still preserving the valuable perspectives gained when 
members of Congress attend legitimate, educational meetings around the 
country.

                              CONCLUSION:

    In conclusion, I want to thank Congress for recognizing the need to 
enhance accountability and public trust in our legislative process, and 
for avoiding a rush to judgment on any one proposal that may have 
resulted in unintended consequences for us all.
    H.R. 4975 is a comprehensive bill that represents input and 
feedback from a lot of members of Congress, constituents and outside 
experts, and ASAE is confident Congress will pass a good bill.
    Thank you again for the opportunity to share the perspectives of 
the association community, and please consider ASAE a ready resource in 
your continued deliberations.

    Mr. Chabot. Thank you very much.
    Ms. Pingree, you're recognized for 5 minutes.

TESTIMONY OF THE HONORABLE CHELLIE PINGREE, PRESIDENT AND CHIEF 
                EXECUTIVE OFFICER, COMMON CAUSE

    Ms. Pingree. Thank you very much, Mr. Chair, and 
Congressman Nadler, Members of the Committee.
    Mr. Chabot. Chellie----
    Ms. Pingree. Oh, sorry. Thank you again, Mr. Chair, 
Congressman Nadler, Members of the Committee. I'm very grateful 
for the opportunity to speak in front of you today, and also 
for the privilege of being the President of Common Cause, where 
our motto is ``holding power accountable.'' I know on Capitol 
Hill we're also called Common Curse and it's often thought that 
we're never happy and that we often treat Members of Congress 
with disdain and finger pointing. But I really want to be here 
with a slightly different perspective today and speak to you in 
a humble in that perspective.
    As you heard earlier, I have spent much of my life myself 
as an elected official from the local school board all the way 
up to the Majority Leader of the Maine Senate. And two things I 
uniquely understand, our own ability to function as elected 
officials comes from our dependence on the public's faith in 
the work that we do, and that we are usually uniquely in charge 
of policing the bodies in which we work.
    Today I have the privilege of speaking for the many members 
of Common Cause, and I also want to convey that we strongly 
believe in the work and the purpose of our democracy and our 
Government, and we are, again, here today not just to 
criticize, but also in the hope that we can help offer 
suggestions as you think of ways to restore the faith in 
government.
    I want to remind us again that the public is very concerned 
about the current climate in Washington, and mention one fact. 
You know, 87 percent of the American public today is deeply 
concerned about the war in Viet--in Iraq. [Laughter.]
    And they're still worried about Vietnam too. But 85 percent 
is worried about the corruption of elected officials. That's 
not much lower. And there's a considerable amount of talk in 
Congress--Congressman Nadler just talked about it--about 
whether or not this Congress will ignore the headlines--and 
they can't be much bolder than they are this morning--and not 
get in a dialogue with the public about how to change what's 
going on in Washington. This dialogue is going to continue 
through November, and as hard as it is to make these changes, 
and how much your colleagues would prefer that you did nothing 
here, I want you to remember those members of the public who 
are deeply concerned today.
    I don't think at this moment I have to remind you about the 
significant scandals that are going on, and the numbers of 
Members who are being questioned, the headlines, the Members 
who are now facing potential major challenges, and I can't 
focus on all aspects of the ethics laws, but let me talk about 
two things that are of greatest concern.
    The first, to reform groups, is certainly the questions 
that have come about based on our deep concern that the House 
Committee on Standards and Official Conduct, the Ethics 
Committee, is again stalled, all of last year worked in 
suspended animation, and appears to be deadlocked again, unable 
to agree on which cases to pursue. Clearly, this is a body that 
has failed to enforce the rules of conduct for Members of this 
chamber. And I want to again emphasize that the public views 
this as Congress protecting their own, a lack of action which 
is clearly inexcusable, perhaps the greatest factor in the low 
approval ratings for Congress and our public officials. This is 
often looked at by the public as an old boy network instead of 
a judicial body.
    We have proposed, and are happy to give you more 
information, and provided more information today, a similar 
model that is implemented in several States of an outside body. 
Kentucky, Florida, nearly 30 State legislators have these 
independent bodies, and we have answered many of the questions 
in our backup documentation today that have been raised. This 
is not unconstitutional. It does not provide a permanent 
outside counsel, and in fact, it offers an opportunity to 
remove the adversarial relationship and the difficulties that 
often come from being inside the Ethics Committee and needing 
to act on the concerns about your fellow Members.
    We also are concerned that there is no opportunity for 
organizations such as ours to file outside complaints, and we 
know that that needs to be changed.
    One other matter I want to address, again, because of the 
limited scope of this particular Committee, is this issue of 
lobbyists on corporate flights. Again, this does not get to the 
concern. Lobbyists are not the problem on the jets. This is 
something of value given at a lower cost and the public does 
not feel this looks right. This also allows for the opportunity 
that a lobbyist would not be on the flight, but a CEO. It does 
not solve the problem.
    In general, we do not feel that the House yet has tackled 
or gone far enough on many of the issues that we care about. 
This bill comes closest in looking at disclosure, but does not 
deal with the tie of lobbyists as fund raisers. The trip ban is 
only temporary. The gifts and revolving doors, I could go on 
for a long time about the things that we think are important. 
We've give you backup documentation on that.
    Let me just end by saying two things that we think are 
important, that is about the essence of what truly needs to 
change. This morning we're looking at headlines about the 
leader of this body leaving in disgrace. Untold staff, possibly 
Members, will be touched, behavior which now to the public 
looks as if it's become commonplace.
    I want to ask two things of you. I know that you have to 
think about in your public face how you discuss this with your 
colleagues, with your constituents, but I also want to ask you 
how this feels in your heart. Is your behavior or your 
colleague's behavior one that affects a strong character and 
good judgment? Do we have the system available to us that is 
required to enforce? You on this Committee have the unique 
power and ability to restore Americans' faith in our elected 
leaders, to return the democracy to a place where not only can 
we be proud to be role models for this country around the 
world, but also where the American people feel that they want 
to be engaged to vote, to participate, to care.
    And I speak lastly as a mother and a father, a person who 
in America has to talk to their children about a career that 
they should choose. And I am fortunate to have a daughter who's 
a State legislator. I don't want to say to her, ``You know, I 
think you should go to Congress. It's great there. You can fly 
for free on corporate jets. There's a lot of free lunches. 
You'll get to know lobbyists. You can spend your time raising 
endless amounts of money and making decisions that you don't 
feel good about.'' I want to be able to say to her, ``This is 
honorable. It's public service. You have the kind of character 
that makes you belong in that place, where you can be part of a 
system that operates in a way that makes people proud, and you 
can make the tough decisions and do the right thing.''
    Thank you very much.
    [The prepared statement of Ms. Pingree follows:]

          Prepared Statement of the Honorable Chellie Pingree

    Chairman Chabot, Ranking Member Nadler and members of the 
Subcommittee, I appreciate the opportunity to appear before you today 
to discuss the Lobbying Accountability and Transparency Act of 2006.
    The House of Representatives is about to consider a difficult 
matter. Unlike most issues that come before you, the issue of lobbying 
and ethics reform directly impacts the lives of members of Congress and 
their staff. I understand how difficult this can be having served as a 
State Senator in Maine for a number of years.
    Nevertheless, I am here today to give my candid view of the 
Lobbying Accountability and Transparency Act and the ways in which I 
think it can be improved.
    I do not need to remind the members of this committee of the 
circumstances surrounding this debate: one member of Congress recently 
sentenced to more than eight years in prison; a recent guilty plea from 
a top aide to the former Majority Leader, who himself has been indicted 
in a different matter; a lobbyist sentenced to almost six years in 
prison and awaiting further sentencing; and at least six members of 
Congress currently being investigated by the Department of Justice.
    It should be no surprise that the goal of this legislation is 
nothing less than restoring the public's confidence in this 
institution. Thanks to the misconduct of perhaps a handful of members 
of Congress and at least one lobbyist, most Americans consider 
corruption to be one of the major problems facing our country--in 
league with the war in Iraq.
    Let me repeat that: many Americans believe that corruption in 
Congress is as much of a problem as the war in Iraq.
    Since this is all public knowledge, I am surprised by the response 
of some members in both the House and the Senate to this situation. 
Unlike these legislators, I am not concerned that Congress is 
overreacting by passing lobbying and ethics reform legislation. But 
rather, I am concerned that Congress' credibility problem is going to 
continue beyond this election year.
    With this in mind, let me share with you some of the policy 
positions Common Cause has advanced in lobbying and ethics reform as 
you consider the legislation we have come here to discuss.
    According to a recent article, the House Committee on Standards of 
Official Conduct (Ethics Committee) is once again stalled. After 
spending all of last year in a state of suspended animation, the Ethics 
Committee appears deadlocked again, unable to agree on which cases to 
pursue.
    I think I speak for the entire reform community when I say: the 
House Ethics Committee, despite the hard work of some of its members--
notably former-Chairman Joel Hefley--has failed to enforce the rules of 
conduct for members of this chamber. This is the biggest problem you 
face, and it needs to be fixed.
    The Lobbying Accountability and Transparency Act will have little 
effect on the problem of enforcement.
    I propose that this committee consider the reasonable and widely 
utilized model adopted by many state legislatures to deal with this 
problem. That is: inject some level of independence into the process of 
investigating possible ethics violations by members of this body.
    The simple truth is that the public sees the House and Senate as 
protecting their own. The lack of action by both the House and the 
Senate involving the widely publicized misconduct of several members 
and staff is simply inexcusable. I believe it is the single biggest 
reason that the public approval ratings for Congress are as low as they 
are.
    Common Cause supports the legislation introduced in the Senate by 
Senator Barack Obama, which would create an independent ethics 
enforcement commission modeled on commissions that already exist in a 
number of states.
    Recently, several members of the Tennessee state legislature where 
targeted in a federal corruption sting. The Governor called a special 
session, and the legislature created an independent ethics commission 
in response to the scandal. According to the National Conference of 
State Legislatures, more than 30 states have some form of independent 
ethics commission with jurisdiction over the legislature.
    Some have argued that an independent ethics enforcement commission 
in Congress is unconstitutional. Many legal scholars, however, believe 
that it is constitutional. You will find included with my written 
testimony a memorandum written by former general counsel to the House 
of Representatives Stan Brand, which sets forth the arguments as to why 
an independent ethics enforcement commission is indeed consistent with 
constitutional requirements.
    Unless this Congress deals with the failed system for enforcing its 
rules by seeing to it that its own members are held accountable, I 
suspect that it will not be long before we are back here talking about 
this same problem.
    I would like to also briefly discuss Section 303 of the Lobbying 
Accountability and Transparency Act, which would prohibit registered 
lobbyists on corporate flights.
    I think this legislation misses the mark on the problem of 
registered lobbyists traveling around with members on charted company 
jets. The lobbyists are not the problem, the jets are.
    Here again, the public perception is critical. Most Americans never 
have and never will fly on a chartered jet, much less a fancy corporate 
jet complete with wet bar and leather couches. So when members of 
Congress constantly fly around on corporate jets and pay only the cost 
of a commercial ticket, it contributes to the corrosive public 
perception that members of Congress are more like the fat cats of Wall 
Street than they are like the rest of us.
    Besides, even if lobbyists are not on the flight, someone from the 
company, like the C.E.O., will be on board to discuss the company's 
legislative agenda in their place.
    Members who travel on private corporate jets are being subsidized 
by the companies that own those jets. The difference in price between a 
first class commercial ticket and the price of chartering a plane is 
enormous, and has the appearance of a gift to the member. This 
legislation would do nothing to change that.
    A recent Washington Post editorial about the lobby reform bill 
recently passed by the Senate includes this passage:

        If the Senate bill is disappointing, though, the House is 
        poised to do even worse. A proposal unveiled last month by the 
        Republican leadership would do nothing to restrict gifts from 
        lobbyists. It would merely impose a temporary moratorium on 
        privately funded travel while the ethics committee studies what 
        to do--or, more cynically, while members wait for the storm 
        over Jack Abramoff to blow over. It suffers from the same 
        shortcomings as the Senate measure in terms of enforcement and 
        corporate jets.

    I have touched on just two provisions in the legislation that is 
before this committee today. But there are many other areas where this 
bill fails to make the necessary changes that are needed if it is going 
to assure the American people that when it comes to dealing with 
corruption, this Congress ``gets it.''
    Again, I appreciate the opportunity to appear before the committee 
today and, of course, will answer any of your questions about this 
issue.
    Thank you.

                              ATTACHMENTS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chabot. Thank you.
    And, Professor Smith, you're our next witness. You've 
already been introduced, and I already said nice things about 
you. You weren't here, however, when we swore the panel in, so 
if you wouldn't mind standing and raising your right hand.
    [Witness sworn.]
    Mr. Chabot. The witness has indicated in the affirmative.
    I welcome you here, Professor Smith. Have you testified 
before Committees before
    Mr. Smith. I have.
    Mr. Chabot. So you're probably familiar with the 5-minute 
rule then, and that the clock will be on. Yellow light comes on 
when you got 1 minute remaining, and a red light means 5 
minutes are expired. So you are recognized for 5 minutes.

TESTIMONY OF THE HONORABLE BRADLEY A. SMITH, PROFESSOR OF LAW, 
    CAPITAL UNIVERSITY LAW SCHOOL, ON BEHALF OF CENTER FOR 
                      COMPETITIVE POLITICS

    Mr. Smith. Very good. Thank you, Mr. Chairman, Ranking 
Member Nadler and Members of the Committee. I apologize for 
arriving late. We had a delay in our flight out of Columbus due 
to mandatory rest time for the crew. In any case, I'm pleased 
to be here and back in this beautiful room.
    I do believe that what Members of Congress do is an 
honorable profession, and I think it's important that as policy 
is made we begin with the understanding and the recognition 
that perception is not necessarily reality, and just as a good 
guide in the desert doesn't take people to the mirage, he takes 
them to where there's actually water, good policymaking begins 
with focusing on reality and not losing track of reality for 
perception.
    We have a number of scandals that have been wracking this 
city. They're loosely dubbed ``the Abramoff scandals.'' They 
cover a number of things which are unrelated to Abramoff and 
some that are related to Abramoff, the common basis being that 
they're scandal. The last I looked, all the people at the heart 
of these scandals have in fact been sentenced or under 
investigation. So the fact that people broke the law and are 
being punished for doing it, does not suggest, generally 
speaking, that a vast new web of law is necessary. And for that 
reason, I think 4975 deserves credit as a bill that seeks to 
improve the system without panicking, without taking sort of 
panicky measures or infringing on the rights of citizens to 
petition their Government for redress, an important 
constitutional right.
    It is, for example, easy to complain about Members flying 
on corporate aircraft, including even rotten, little crummy 
turboprops. But it is easy to say that travel like this should 
be banned. That's an easy thing to do. But making it more 
difficult for Members to visit their districts, making it more 
difficult for Members to attend multiple functions in sprawling 
rural districts, and placing added demands on a Member's time, 
something that we are repeatedly told, I think correctly, is 
the most valuable commodity that Members have. It's hard to 
explain, if we want to think about what is really substantively 
good policymaking.
    So along those lines, I think that this bill wisely takes 
an approach of improving the disclosure system, not only 
through more frequent disclosure, but through a disclosure 
system that citizens can use more frequently.
    The key to disclosure is that citizens should have 
information about their Government. It is not necessary for the 
Government to collect information about the citizens. For that 
reason I think that 4975 also wisely resists requests that have 
been made to limit grass roots lobbying, which is efforts to 
get citizens involved in contacting Members of Congress, and 
that grass roots lobbying is really exactly the kind of thing 
we ought to be encouraging. It doesn't really matter in the end 
why a citizen decides to contact a Member of Congress, the 
point is, a citizen has to decide that the issue is important 
to him or her, and take the step to actually call or contact 
the Member. And in that respect, grass roots lobbying therefore 
breaks the nexus between lobbyists and between Members of 
Congress that makes some people concerned that certain 
interests get special favors.
    So I think that 4975 has taken the right approach there, 
and I urge the Committee to reject any attempt to go beyond 
that. I think it's a good bill that's balanced, that makes the 
improvements that are necessary, and that will help to make 
sure that the types of scandals that have gone on and that are 
already in fact generally being punished and investigated, are 
discovered more quickly and investigated more quickly.
    Thank you very much. I look forward to any questions from 
the Committee.
    [The prepared statement of Mr. Smith follows:]

          Prepared Statement of the Honorable Bradley A. Smith

    Mr. Chairman and members of the Committee:
    Thank you for inviting me here to testify today on the important 
issue of lobbying reform. By way of introduction, I am currently 
Professor of Law at Capital University in Columbus, Ohio; Senior 
Advisor to the Center for Competitive Politics, a non-profit 501(c)(3) 
organization formed to educate the public on the political process and 
the benefits of political competition; and Of Counsel to the law firm 
of Vorys, Sater, Seymour & Pease. From 2000 to 2005 I served as 
Commissioner on the Federal Election Commission, including a term as 
Chairman in 2004. In this latter capacity, I was privileged to travel 
and speak throughout the country with ordinary Americans concerned 
about corruption in government and the perceived remoteness of 
Washington to their everyday concerns. Although Vorys, Sater, Seymour 
and Pease represents many clients before the government, I am not a 
registered lobbyist. I address the Committee today on my own behalf and 
that of the Center for Competitive Politics, and not the law firm of 
Vorys, Sater, Seymour & Pease or Capital University.
    I want to begin by congratulating the drafters of H.R. 4975 for 
producing a carefully targeted bill that aims to restore public trust, 
and prevent lobbying abuses, while minimizing the burden on the vast 
majority of lobbyists who are honest, dedicated individuals helping 
citizens to exercise their fundamental Constitutional Rights of Free 
Speech and the Right to Petition the Government for Redress of 
Grievances. These are among the most important rights guaranteed by our 
Constitution. Yet all too often in the past, we have allowed isolated 
incidents of improper behavior--scandal--to stampede us to hastily 
conceived, ill-considered measures that restrict these important 
Constitutional rights while doing little to address the abuses that 
allegedly justify the restrictions. All of us here know that lobbyists 
can provide a valuable function, providing members with useful, 
important information on public opinion, and also with the information 
needed to craft wise, beneficial, effective legislation. We know that 
abuses exist, but that they are the exception, not the rule. Thus, it 
is important to pass serious, balanced legislation, that addresses 
specific and real problems, rather than to engage in populist 
grandstanding. I think that H.R. 4975 largely achieves that goal.
    In particular, H.R. 4975 wisely avoids restrictions on efforts to 
encourage citizens to be in contact with members of Congress--citizen 
political participation sometimes referred to as ``grassroots 
lobbying.''-- that is vital to reducing the types of scandals at issue 
in the Abramoff and Cunningham cases. The attached Policy Primer, 
written by myself and Stephen Hoersting for the Center for Competitive 
Politics, lays out general principles that we hope will guide Congress 
in this area. In particular, we focus on the important role of 
disclosure in preventing abuses of the right to petition the 
government. H.R. 4975 largely adopts that approach. It is important to 
remember that the purpose of disclosure is to provide information to 
citizens about their government--not to provide government with 
information about the activities of its citizens, which raises serious 
First Amendment issues and may discourage contact between ordinary 
citizens and congress.
    Thus, in my view H.R. 4975, by carefully tailoring added 
disclosure, accompanied by added penalties for violations, to the type 
of activity that created has created the current situation, has hit the 
mark. H.R. 4975 is particularly beneficial in requiring improvements to 
disclosure that make the information about government more readily 
available and useful for ordinary citizens around the country.
    Thank you.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chabot. Thank you, Professor. We will now take 5 
minutes each to answer questions--or ask questions ourselves, 
and I'll begin with myself. I'm recognized for 5 minutes to ask 
questions.
    I'll address this to the whole panel so you can all take a 
few moments to comment on it if you'd like to. Would you 
comment on the potential benefits created by the legislation's 
enhanced disclosure? Anybody that would like to comment upon 
that, I'd be happy to take them. Mr. Graham?
    Mr. Graham. Well, I think two aspects. Number one, moving 
from semi-annual to quarterly, I think, increases transparency, 
and I think moving to electronic allows, as it does with 990's 
in terms of tax reform--in terms of tax reports for nonprofit 
exempt organizations. It increases transparency and the ability 
of the public to access those disclosures.
    Mr. Chabot. Thank you.
    Mr. Gross?
    Mr. Gross. One of the more interesting provisions in this 
bill is the disclosure of gifts. Up till now we really had no 
disclosure of gifts. If you entertained a congressman, you were 
under a $50 or $100 annual limit, but it was just the part of 
an aggregate disclosure on a semiannual report that may say 
$840,000 spent on lobbying. Here, this identification of any 
entertainment, lunch, meal of over $10 or more showing up on 
the report should be interesting information, and I think would 
be helpful in the disclosure process, along with the political 
contributions, which is already on the FEC reports, but this 
will put it right on the lobby report, not only contributions 
made by the lobbyists, but probably more importantly, by a 
political action committee connected to the employer of the 
lobbyist. So that is a meaningful improvement right there.
    Mr. Chabot. Let me ask a second question then, and again, 
I'll leave this open to anybody that would like to comment on 
it. Are there other provisions within the jurisdiction of the 
Judiciary Committee that any of the panel members think would 
improve the legislation that's perhaps not in here now that 
they think should be considered?
    Mr. Gross. Well, this may be Chellie's province more, but I 
think that these reports would be helped with even more 
breakdown of the information. You're still having an aggregate 
number. I think it would be, perhaps, helpful if you had the 
portion of the number that was for in-house lobbying, and the 
portion of the number that represented trade association dues 
for lobbying, and the portion of the number that reflected 
payments to outside lobbyists. You're already going to have the 
travel and entertainment. It would be just an additional 
breakdown of information that's on there that I think would 
help promote compliance and would be more--more information, I 
think, is always helpful.
    Mr. Chabot. Thank you.
    Do any of the other panel members want to touch on that?
    [No response.]
    Mr. Chabot. Okay. I'll go to my next question then. H.R. 
4975 will require greater disclosure, as we've mentioned, on 
the part of lobbyists, and grant the independent Inspector 
General's Office the authority to author--excuse me--to audit 
those disclosures and check for compliance, and refer potential 
violations to the Department of Justice. How will these further 
reforms in H.R. 4975 help authorities spot potential corruption 
earlier than they might have otherwise, or help them with 
investigations generally? Ms. Pingree?
    Ms. Pingree. Well, we certainly applaud the idea of random 
audits, and in fact, more disclosure, because those are two 
concerns that we think will help to provide more information to 
organizations like ours and then the public generally, Members, 
constituents and others. I will say though, again without 
sounding like a broken record, that a random audit, in our 
opinion, doesn't do as much as an external office of public 
integrity, or some sort of functioning body that does a more 
thorough investigation, both of what's contained in these 
reports, and some level of oversight.
    There was some suggestion that the Department of Justice 
was adequate to do this, and again, I would argue that this is 
a function of the Congress itself, and that the current system 
has not been functioning in such a way that's provided enough 
oversight. You know, many of the scandals, Professor Smith has 
talked about, they've been taken to a certain level, and we're 
probably likely to hear more about them, should have come to 
light far before they had to go to the Department of Justice. 
And so I would just suggest that there's far more need for 
enforcement than just a random audit process.
    Mr. Chabot. Mr. Graham, did you want to comment?
    Mr. Graham. Just to support that and build on those 
previous comments, I think, clearly, the devil's in the detail. 
And I use the example of the IRS enforcement and their use of a 
similar mechanism, random audits, et cetera, in terms of 
policing the exempt organizations, and, you know, that system 
just is not very effective. And so I would really encourage if 
we're going to go to an enforcement system, that the resources 
be put forward to make sure that we can have effective 
enforcement.
    Mr. Chabot. Thank you. My time has expired.
    The gentleman from New York, Mr. Nadler, is recognized for 
5 minutes.
    Mr. Nadler. Thank you. I have a number of questions. I'm 
not sure who will take the first one. The bill before us 
restates current rules that Members may not condition official 
acts based on the employment decision of an outside entity. The 
Democratic bill makes the same thing a criminal offense, as 
well as a violation of the House rules. Now, both bills are 
referring to the actions of Mr. DeLay and Mr. Blunt, Mr. 
Boehner, and various others. The admitted actions, for example, 
a number of years ago when a former Democratic Congressman 
named Dave McCurdy was announced to be the new president of the 
Electronics Industry Association, DeLay and company got up and 
said, ``This is an insult. How dare you hire a Democrat. You 
better not.'' They threatened him, and they ultimately said, 
``If you insist on hiring him, we will take two bills that 
you're interested in off the House floor that were going to 
pass, and kill them,'' and they did.
    Now, my question is first--now, the Republican bill here is 
suggesting that we ought to restate current House rules again, 
and that that action by the House Republican leadership was a 
violation of House rules. The Democratic bill is suggesting 
that it ought to be a criminal offense.
    My question is, isn't that already a criminal offense? If 
you take official action, pulling two bills off the floor, 
conditioned on a promise of somebody doing something else, 
hiring somebody, not hiring somebody, making a campaign 
contribution, whatever, isn't that bribery if you do that, if 
you demand that someone take an official action and threaten to 
do that? Isn't that extortion?
    Professor Smith?
    Mr. Smith. Well, now, first, you promise that you didn't 
know that he was going to take--no, I appreciate it.
    I won't venture a particular legal opinion without knowing 
all of the details. Certainly, an argument can be made that 
express quid pro quos in some circumstances.
    Mr. Nadler. Can an argument be made that express quid pro 
quos are not bribery or extortion?
    Mr. Smith. Well, the point is, what I'm saying is I don't 
know all of the details as to what was said or what was done 
or----
    Mr. Nadler. Well, never mind the details of that instance. 
The legislation before us, I mean that--one of my criticisms of 
the Clinton administration is that they should have prosecuted 
Mr. DeLay and everybody else involved when they bragged about 
doing that, but that's in the past. My question now is, if 
someone were to do what the bill talks about, if someone were 
to say that I will condition an official act based on who you 
hire or don't hire, isn't that a crime?
    Mr. Smith. Mr. Nadler, what I think you've really landed on 
is that it's often not necessary again to add a web of added 
laws. Many things that we're concerned about, again, are 
already against the law, and people are already being 
prosecuted and so on.
    At the Center for Competitive Politics, on whose behalf I 
am testifying this morning, we really think this effort to 
criminalize political activity is bad. There are certain types 
of things, as you suggest, may rise to the level of criminal 
activity under traditional bribery laws, and we don't need to 
pass sort of vague, expansive----
    Mr. Nadler. Well, I'm sort of interested in that this bill 
restates current rules against what the definition says are 
clearly crimes. I hope it doesn't imply that they're no longer 
crimes, merely rules violations.
    Let me change the topic. Somebody said a few minutes ago--I 
don't remember who--that you're against the grass roots 
provisions or--not in this bill but in some other bills. Now, 
if someone--when we had the debates on a number of--
increasingly, it's a tactic, I should say, to set up 
organizations, Citizens for Honest Government, completely 
controlled by--well, let's put it this way, Citizens for the 
Clean Environment, completely controlled and bankrolled by some 
oil company, let's say. And they lobby in favor of an oil 
company. But of course, they don't admit that they're lobbying 
in favor of an oil company. And you have hearings where someone 
is sitting there and saying, ``Well, on behalf of Citizens for 
a Clean Environment, the best environmental thing to do is A, B 
and C,'' where really they're saying that the best thing to do 
is on behalf of the oil companies, A, B and C. Shouldn't that 
be disclosed, Ms. Pingree?
    Ms. Pingree. Absolutely. We have supported proposals where 
there's increased disclosure. The public has a right to know 
the difference between a consumer organization and a public 
advocacy organization with members, and one whose support 
significantly comes from one industry attempting to----
    Mr. Nadler. And by the same token, if we are suddenly 
inundated with a lot of post cards or phone calls because some 
oil company--and I don't want to demonize the oil companies, 
they're just ones that come to mind--but some oil company, 
let's say, or if you can think of some other company, let me 
know, but some oil company, let's say decides to form Citizens 
for a Clean Environment, and Citizens for a Clean Environment 
calls up 10,000 people and says, ``In order to have a clean 
environment, support the Clean Water legislation,'' that in 
fact pollutes everything. Shouldn't we know who's financing 
that?
    Ms. Pingree. Yes. And, again, you know, we just published a 
report on astroturf lobbying around the Telecom Act, so we're 
watching this in a variety of venues, and we do think the 
public has the right to know some disclosure about where the 
funds come from.
    Mr. Nadler. That's the grass roots lobbying that Professor 
Smith said we shouldn't do anything about.
    Why shouldn't the public, Professor, know, or why shouldn't 
Congress, frankly, know that this outpouring of support for 
this legislation is paid for by somebody?
    Mr. Chabot. The gentleman's time has expired, but the 
gentleman can answer the question.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Mr. Nadler.
    I would think two things. First, again, as I suggested 
earlier, ultimately people, average citizens, are calling you. 
Now, that's an average citizen and he's decided this is 
important to him and he's going to call. He may be misinformed. 
He may be misinformed because of a campaign by a union which is 
going on in central Ohio where I live, or a big oil company 
which may be going on someplace in America that I haven't heard 
of. But either way, it's an average citizen who's taking that 
step----
    Mr. Nadler. Right, but shouldn't we know if someone is 
informing him or misinforming him?
    Mr. Smith. Mr. Nadler, I cannot----
    Mr. Nadler. It's his judgment and our judgment whether he's 
being informed or misinformed, but if someone's paying for that 
campaign, why shouldn't we know that?
    Mr. Smith. I cannot imagine----
    Mr. Chabot. The gentleman's time has expired, but the 
gentleman can answer the question.
    Mr. Smith. I cannot imagine that there is a Member of this 
Committee who doesn't know whether there's an orchestrated 
grass roots lobbying campaign going on in his district, and I 
would think that anybody who doesn't, needs to get back to 
their district more often. From what I can tell, everybody 
knows who's paying for these ads that are going around in 
central Ohio now. Everybody knows who's doing these things.
    Mr. Chabot. The Chair recognizes himself for a point of 
personal privilege for just a moment. I might note that there 
are groups with names like America Working and We the People, 
and a number of other motherhood and apple pie names, which 
are, as we speak, making phone calls in the districts of 
certain Members of this Committee, who are distorting their 
records and saying they voted for the Medicare Prescription 
Drug Bill when they actually voted against it, and some other 
things. So I would argue that the campaigns out there, where 
one does not disclose the true nature of calls being made, for 
example, are unfortunately, or fortunately on both sides, and 
there are abuses which are occurring which aren't necessarily, 
unfortunately, remedied in this bill, but we're trying to make 
an effort here to clean up something which is long overdue to 
be cleaned up in this city.
    Mr. Nadler. Mr. Chairman?
    Mr. Chabot. Yes?
    Mr. Nadler. I appreciate your pointing out the necessity of 
what I was just saying. I gather you would agree with me that 
the true sponsorship ought to be disclosed, rather than with 
Professor Smith, who assumes that everybody in the Congress 
known the true sponsorship or that everybody in the public 
knows the true sponsorship.
    Mr. Chabot. Yeah. I would say, as one Member of Congress, I 
definitely agree that it's good for the public to know how is 
behind ads or phone calls so that there's true disclosure, 
whether it's a corporation or whether it's a labor union or 
whomever. I think public--we ought not to shut off free speech, 
and there ought to be both sides, but people ought to know 
where the calls are coming from and who's paying for the calls, 
whether it's George Soros, or whether it's a particular oil 
company or whomever.
    Mr. Nadler. Exactly. I appreciate the Chairman agreeing on 
this point, and maybe we'll have an amendment tomorrow on this 
point.
    Mr. Chabot. We're going to listen very intently and closely 
to every amendment offered by both sides, and I appreciate the 
gentleman, Mr. Nadler's input on everything, as usual. We 
actually agree on some things.
    The gentleman from Arizona is recognized for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman. Thank you all for 
being here.
    As you probably know, the bill that we're discussing here 
today is a little broader than some of the things that are 
specifically before you because of the jurisdiction limitations 
of this Committee.
    Having said that, I'd like to get a reaction from each of 
you as to whether you think that there are any significant 
flaws in the overall bill, and whether or not you feel like 
there are any significant omissions that you think are of 
particular consequence. I'll start with you, Mr Gross.
    Mr. Gross. Are you talking about the provisions that are in 
the jurisdiction of this Committee?
    Mr. Franks. Yes, sir. I would like for you to go ahead and 
be, if you're comfortable, be as broad as you like. What do you 
think that we're--are we failing to address something here that 
needs to be addressed, or are we addressing something 
improperly?
    Mr. Gross. Well, you know, to focus on the provisions of 
the Committee, I do think the bill is a significant advancement 
on the current law. We could debate grass roots. I think if you 
do get into grass roots, you really have to define what it is. 
You know, we're not talking about people just expressing their 
rights, whether it's a concerted, sophisticated effort, there 
may be ways to define professional grass roots, if you will. In 
fact, 30 States have some disclosure of grass roots lobbying. 
When it comes to, I think, the law-making process itself, which 
is what I was suggesting in my opening comments, that this is a 
piece of the puzzle, what is before this Committee today, and I 
certainly support the provisions that are before this Committee 
today.
    But when we get into the earmarking provisions, which are 
outside of this Committee's jurisdiction, that is where the 
rubber meets the road. That is the lawmaking process itself. 
The transparency of that process is, I think, probably the most 
critical provision in the bill, and where I would, you know, be 
focusing my attention if it were in that Committee's 
jurisdiction.
    Mr. Franks. Thank you.
    Mr. Graham?
    Mr. Graham. Well, as I indicated in my comments, we're very 
concerned about even a temporary travel ban. You know, we think 
that a preapproval process is a much better and a much more 
effective method to be disclosive about Member travel. We think 
that the vast majority of Member travel is very appropriate. 
You know, getting on a train and going to Philadelphia for a 
convention of the American Diabetes Association, for example, 
my previous role, you know, to me is not an abuse, and more to 
the point, really enables constituents to interact with Members 
of Congress, or the administration, for that matter, and really 
understand better the fight against diabetes in that case.
    So I think that, you know, Members of Congress should be 
encouraged to travel. I think they should be out there visiting 
with constituencies. Clearly, a disclosure about where they're 
going and preapproval to go there, I think is very appropriate, 
and just encourage you to be very, very careful about even a 
temporary ban and what slope that takes us down.
    Mr. Franks. Thank you.
    Ms. Pingree?
    Ms. Pingree. Thank you, Mr. Franks. I guess the concern 
from Common Cause in terms of the overall bill is that it 
doesn't go far enough in the areas that we are particularly 
worried about. Kind of going back to my original remarks, I 
think the goal here is to restore the faith of the American 
public in the behavior of Congress, and we don't see this as a 
significant enough step.
    A couple of the points that are particularly important to 
us, as I mentioned before, the significance in the House can't 
be overlooked of an Ethics Committee that just has not been 
functioning, and many of the concerns that people have already 
suggested, might have been illegal, might have been unethical, 
not being brought to life early enough--brought to light early 
enough. And we believe there should be an independent office of 
public integrity, and there are a variety of ways of 
structuring that.
    A second point for us is doing more to break this nexus 
between lobbyist money and lawmakers. There are 79 Members of 
Congress who have a lobbyist who serves as their treasurer, a 
registered lobbyist, and it just doesn't pass the straight-face 
test on the part of the public, the influence of money in the 
political process.
    Mr. Franks. Ms. Pingree, with your permission, I'm going to 
have to stop you right there. I'm about out of time.
    Ms. Pingree. I don't want to use it up.
    Mr. Franks. But I appreciate the viewpoints.
    Professor Smith, let me go ahead and broaden my question 
just a little bit to you. I was intrigued by the name of your 
group being Competitive Politics. One of the experiences we've 
had in Arizona, in adopting a clean elections process, is that 
that process itself became very politicized and very kind of 
difficult to really ascertain for the public. They just really 
didn't know what was going on. It became, in my judgment, a 
terrible mistake for us, and we've seen that in some of the 
appointed politics. So can you address--related to the whole 
independent ethics commission, do you think that that may cause 
more problems for us in the long run in terms of actually 
helping the public know what their public officials are doing?
    Mr. Chabot. The gentleman's time's expired, but you can 
answer the question.
    Mr. Smith. I would just suggest that I think people in both 
parties have come to realize that the idea of the independent 
counsel was not a very good idea, and it sounds to me an awful 
lot like you're talking about setting up a permanent, ongoing, 
never-ending independent counsel for all 435 Members of the 
House and 100 Senators.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Speaker.
    Ms. Pingree, you know, sometimes we state a problem and 
then pass a bill and forget to recognize that the bill really 
didn't address the problem. What problems are we curing with 
this legislation?
    Ms. Pingree. Well, I think that's a very good question.
    Mr. Scott. Okay. Well, let me ask Mr. Gross. [Laughter.]
    What would this legislation do to the K Street Project?
    Mr. Gross. Well, the K Street Project is something that I 
think really played a negative role in what's going on in 
Congress today. I do think that the provisions that are in here 
that address it--and again, they're not part of the 
jurisdiction of our discussion today, but the provisions will, 
hopefully, break that bond or that back and forth between----
    Mr. Scott. What in the bill will adversely affect the K 
Street Project?
    Mr. Gross. Well, the 1-year cooling off is the same. The 
provisions that Congressman Nadler talked about are somewhat of 
a tightening of those provisions. I mean if you're talking 
about extortion, that is a crime today. You don't need an 
additional law. If someone says, ``I will not pass''----
    Mr. Scott. Which provision in the bill will adversely 
affect the K Street Project?
    Mr. Gross. Well, I think the--what is it, 30--the 
provisions that were discussed before, 303 or 304, the section 
there about Members--well, there's two provisions, one, first 
of all, about making it clear to people when they leave 
Congress as to what their responsibilities when they're outside 
of Congress; and the other provision concerning the duties on 
Members not to intimidate people concerning lobbyists who they 
hire?
    Mr. Scott. Is that in the bill?
    Mr. Gross. Well, it's in the section that we discussed.
    Mr. Scott. You mentioned transparency on earmarks. Do any 
lobbyists charge percentage-contingent fees to get earmarks in 
bills?
    Mr. Gross. Contingency fee lobbying is something that goes 
on. It is----
    Mr. Scott. Is there anything in the bill which exposes that 
practice?
    Mr. Gross. No, there is no contingency fee prohibition in 
this bill.
    Mr. Scott. And there's no transparency about a contingent 
fee in the bill.
    Mr. Gross. You would not have to specially disclose a 
contingent fee. You would disclose the amount you were paid to 
lobby, but it wouldn't be identified as a contingent fee, 
that's correct.
    Mr. Scott. What's the going rate for contingent fees on 
getting earmarks in bills?
    Mr. Gross. I don't know. The worst example of it, 
obviously, was in the Cunningham case.
    Mr. Scott. That was a contingent crime. That wasn't----
    Mr. Gross. Contingent bribe. In my experience, many of the 
contracts out there are not contingent fee contracts.
    Mr. Scott. But there are some?
    Mr. Gross. Certainly there are some, yes.
    Mr. Scott. Is there anything--now, for Members, when you're 
negotiating to try to get a job with a firm, is there anything 
that prohibits getting a job for Members or staff if the job is 
not lobbying?
    Mr. Gross. No. The restrictions here are on lobbying.
    Mr. Scott. So if you're negotiating a job that does not 
include lobbying, that's not covered by the bill.
    Mr. Gross. I don't recall any provision in the bill 
specifically in there to that effect. You would have certain 
responsibilities, ethical responsibilities beyond the bill if 
you are negotiating for a job while you had legislation from 
that entity before you.
    Mr. Scott. Mr. Graham, when your organizations have 
conventions, do you routinely pay the expenses of people who 
are speaking at the convention?
    Mr. Graham. Yes.
    Mr. Scott. Including travel, hotel and meals?
    Mr. Graham. Typically, yes.
    Mr. Scott. Whether they are an elected official or not?
    Mr. Graham. Typically, yes. Obviously, we're not paying 
honorariums to elected officials.
    Mr. Scott. Right. And these conventions are generally held 
in exotic places to get the attendance, not just the speakers?
    Mr. Graham. The vast majority of these conventions are held 
in cities across the United States like Chicago, Detroit, St. 
Louis.
    Mr. Scott. New York City, Virginia Beach, Williamsburg?
    Mr. Graham. Yes.
    Mr. Scott. But certainly not Cincinnati, Ohio?
    Mr. Graham. There's a lot of meetings held in Cincinnati, 
Ohio. [Laughter.]
    Mr. Chabot. The gentlemen's time has expired. The gentleman 
yields back.
    The gentleman from Iowa, Mr. King, is recognized for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony. I was out of the room for most 
of it, but I have gone through your testimony prior to your 
presentation. I sit here and listen to the testimony, and what 
we're seeking to accomplish here, and I'm a little bit 
undecided as to what we're trying to accomplish. But I look 
back at my morning this morning, and I had a meeting this 
morning that lasted for an hour in my office with about six 
bankers from different areas of the banking industry. And I 
left and came in what would be normally earlier than one would 
on a Tuesday morning to do that, so that they could have access 
to me and I could have access to the information that we would 
exchange.
    I would say that we can't function around this Congress if 
we don't have real good solid reliable information that's 
readily available and presented to us on a voluntary basis from 
the members of the lobby.
    And so it would occur to me that if I had the chance--the 
choice between being on a plane ride for an hour, going 
somewhere and expediting my time, or perhaps on a train and 
expediting my time, and at the same time having a meeting while 
I'm traveling, if that could be facilitated by a lobbyist, I'm 
wondering what kind of influence, unnecessary influence that 
might be, why the travel becomes part of it rather than the 
access. I have often thought that a $50 meal or a $50 gift, why 
is that a limit, and why would anyone even want to have a 
debate on whether one's vote were for sale for 50 bucks of 
anything, when the same person that's there perhaps buying the 
meal or presenting the gift, could also hand a check over for 
that election cycle for $2,100 bucks or maybe he even controls 
a PAC. They could attach a check to that for $5,000. How far 
off base are we on this being influential? Isn't money more 
influential than a grueling ride in travel to go somewhere to 
an event that may be a repetition of something we've done in 
the past?
    So I guess I'd like to direct my question first to Mr. 
Graham because I think the tone of your testimony probably fits 
more closely with my attitude about this. But is there anything 
wrong with private travel? Could you give an example, perhaps 
of when--just that question itself. What's the philosophy on 
private travel?
    Mr. Graham. We don't think there's anything wrong with 
private travel. We think it's very appropriate for Members of 
Congress to visit with representatives from various 
constituencies, industries, professions, about concerns that 
they have with their Government and their representatives. And 
so we don't see any problem with that at all. In fact, our 
concern would be if the travel were banned, that the travel 
that would be permitted is the very travel you just alluded to, 
that is, fund raising travel. So the same Member could be 
invited to go to the same meeting, call it a fund-raising trip, 
receive contributions and come back again. So we are concerned 
about that. That, we believe, would be an unintended 
consequence of legislation that would ban travel.
    Mr. King. What would your comments then be, Mr. Graham, on 
transparency?
    Mr. Graham. Transparency ought to be fully--everything 
should be fully disclosed. I think that travel could be 
preapproved if the body so thinks so, and we don't have any 
problem with preapproval of travel, and that should be a very 
transparent process. So-and-so is going to X meeting to talk to 
X number of people about these issues, and to me, that's pretty 
clear.
    I think there's a very big distinction between somebody 
who's flying to the Caribbean Islands for a 5-minute speech and 
a 2-day trip, than somebody who's flying to Cincinnati--I'll 
use Cincinnati as an example--for a convention of physicians. 
To me they're very, very different.
    Mr. Chabot. I would just take note that many people fly to 
Cincinnati for glorious vacations, and I would encourage them 
to do so. [Laughter.]
    See the Reds, opening day yesterday.
    Mr. Graham. I was responding to Mr. Scott's comment. 
[Laughter.]
    Mr. King. I thank the Chairman for his intervention there, 
that levity that he brought into this process. Let me see if I 
can reshape my question then.
    Would it be your judgment that the voters would be able to 
discern appropriate travel from inappropriate travel if we had 
transparency?
    Mr. Graham. Absolutely.
    Mr. King. Thank you.
    I'd direct my next question to Mr. Gross, and you have some 
testimony about transparency, and in your testimony, as I pull 
it out, it seems to reference searchable, sortable databases, 
and the way I read that--and I would ask if you would agree 
with me--will that information that would be presented by the--
by filed by the lobbyist in that electronic searchable, 
sortable, and downloadable database, would that be something 
could be indexed to the FEC reports to check the--to check our 
filing to match up to the lobbyist's filing?
    Mr. Gross. You could certainly create a link right to the 
FEC report, and if there were discrepancies, they would be 
ascertainable, because as I read this legislation, much of the 
information that would be going on the lobby report would 
mirror what's on the FEC report, but it would just be in a more 
convenient, accessible format right there on the lobby report.
    Mr. King. If I might ask for----
    Mr. Chabot. The gentleman's time is expired.
    Mr. King.--one more minute?
    Mr. Chabot. Without objection, the gentleman is granted an 
additional minute.
    Mr. King. Thank you, Mr. Chairman.
    Just quickly, the follow-up question then is, would you be 
of the opinion that a searchable, sortable electronic filing 
for Members of Congress and the FEC under the same type of 
format would be an appropriate solution as well?
    Mr. Gross. Absolutely.
    Mr. King. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from Maryland, Mr. Van Hollen, is recognized 
for 5 minutes.
    Mr. Van Hollen. Thank you very much, Mr. Chairman.
    Let me also thank all the witnesses here this morning, and 
as Ms. Pingree and others have said in their statements, I 
think what we're trying to do here is begin to restore the 
faith and confidence of the American people in the process we 
have here for making the laws that govern the Nation.
    If that's the test, I have to say I do think this bill 
falls way short. I think it's an anemic bill in many ways. And 
I think the questions on both sides of the aisle have really 
exposed the primary weakness of this bill, which is that it 
does not address the fundamental issue of the nexus between the 
campaign finance system and lobbying. I don't think anywhere in 
this bill, regardless of what Committee of jurisdiction we're 
talking about, do we seriously address campaign finance reform 
issues. And I would like to associate myself with the comments 
in that regard by Mr. Nadler at the outset, because I do think 
that is a fundamental piece of this, and I think ultimately our 
system needs a healthy dose of a public finance system.
    And I think that if--we've heard the example, the fact that 
a lobbyist can't fly on the jet, and at the same time that 
lobbyist could be chairman of the leadership PAC. Is that 
right? I mean, there's nothing that would bar that same 
lobbyist from being the chairman of the leadership PAC, nothing 
in this legislation does this.
    But let me just delve a little bit into an issue that is in 
the jurisdiction of this Committee that does involve the nexus 
between lobbying and the fund raising piece. This bill has a 
provision that simply says that the lobbyists now must disclose 
their contribution, not only with the FEC, but as part of their 
filing report. But how about getting at the issue that 
lobbyists do play a role in essentially bundling contributions? 
I mean, lobbyists hold fund raisers. They invite their friends. 
They invite their colleagues. They invite their business 
associates. Why not have a provision in this bill that in 
addition to requiring the disclosure by the lobbyist of his or 
her individual contribution, also discloses that lobbyist's 
role in the bundling process in the holding of a fund raise.
    If we could begin with Ms. Pingree? But I would like to get 
everyone's view on that.
    Ms. Pingree. We would certainly be in favor of that, and 
again, you kind of got to the heart of what the question is 
here. I would just say that we are very anxious to see Congress 
move forward on those things that really will be able to 
restore the faith in the public, and a lot of it has to do with 
nexus between the influence of money and the political process.
    And many of these things, like a gift ban and a travel ban, 
it's true will not go far enough to making a significant 
difference. Some of it has to do with the fact that people are 
negotiating for fund raising when they're having a meal, when 
they're having a trip, and that's why this alliance and 
association is so important.
    So we would be in favor of things that look much more 
closely at the role that lobbyists play in fund raising, 
bundling, soliciting contributions, holding campaign events. 
You know, any hour of the day in this city you can pretty much 
find an event somewhere where someone's trying to raise money 
for their next election, and that's part of what needs to 
change.
    Mr. Van Hollen. Right.
    Mr. Graham? In the interest of full disclosure, everyone 
say the more disclosure the better. Why not add a provision to 
this bill that gets at that issue?
    Mr. Graham. We would have no problem with that. We're 
interested in full disclosure as well.
    Mr. Van Hollen. Good, thank you.
    Mr. Gross?
    Mr. Gross. I don't oppose the provision. However, this is 
regulated conduct already under the Federal Election Commission 
rules, and not widely understood in this city, as a matter of 
fact. If you are a lobbyist for a corporation, you're not 
permitted to bundle contributions on behalf of others in your 
company. The PAC makes a contribution, but collecting checks 
and handing them over in a bundle is not allowed unless you're 
somehow acting as an agent of a candidate. So, obviously, these 
provisions go together. The campaign finance provisions and the 
lobby provisions go together. When you try and regulate one 
area, they're going to manifest themselves in another. But if 
we're going to start to regulate the movement of political 
contributions in this lobby bill, it is going to complicate 
things. I think that probably is more in the province of the 
Federal Election Commission.
    Mr. Van Hollen. Well, as you pointed out, I think that many 
people in this town would be surprised to find out exactly what 
you said, because I think this has been a little enforced 
provision, and probably a very little understood provision. I 
think--and wouldn't you agree though--that from the lobbyist's 
perspective, if you move that requirement to the Lobbying 
Disclosure Report, where the lobbyist then has an obligation to 
report his or her activities, you're going to be much more 
likely to get compliance in reporting than if you have to just 
deal with the FEC process.
    Mr. Gross. You know, it sounds good. It's just a tough 
thing to start to regulate at this place, because the movement 
of money is supposed to be regulated by the Federal Election 
Commission. There have been a few recent cases in this area. If 
you hold a fund raiser, I suppose you could identify on the 
bill, ``I held a fund raiser on April 15th at the Sheraton.'' 
Now, trying to track the contributions that came in as a result 
of that fund raiser may be a difficult thing to do.
    Mr. Van Hollen. No, I understand the issue, and there are 
details here that would need to be worked out. But I think, I 
mean, I think the comments on both sides of the aisle, again, 
reflect the fact that, you know, when you try and look at one 
particular area and ignore the whole campaign finance 
component, we are really doing a disservice to the public to 
suggest that we're really dealing with the issue in a serious 
way, because the campaign finance piece, I think as everybody 
up here knows, is the big dog in the room, and I would look 
forward to working with you to try and develop something that 
addresses this issue.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Mr. Chabot. I would just note, however, the Chair would 
note that we did pass campaign finance reform not too long ago, 
which was, I think, made things in many ways worse than they 
were now--they were prior to that time.
    The gentleman from----
    Mr. Nadler. I would simply point out that that's an 
opinion.
    Mr. Chabot. The gentleman from Florida, Mr. Feeney, is 
recognized for 5 minutes.
    Mr. Feeney. Thank you, Mr. Chairman.
    Professor Smith, I guess I'll start with you. You know, you 
focused on a couple things, and you alluded to the ambiguity of 
some of the rules, and that's a big problem I have. I mean, I 
want to see universal open disclosure by everybody involved in 
the process as early as possible, put on the Internet within 24 
hours. But the other thing that concerns me is the lack of 
black and white lines at times. I mean the whole travel 
situation that--we've had the witnesses talk about how critical 
it is that Members not be here in the dark and in ignorance. 
There's so much and this is a--we're the one superpower on the 
globe right now, and to be honest with you, if Members are 
going to sit here in the dark and try to make guesses about 
what's the best for America's future, then I'm really worried 
about the future of Congress. A very different world than when 
our Founding Fathers were protected by 6 or 8 weeks between 
what it took on a boat to get from England or Europe, for 
example, to the shores of the United States. We have threats 
that are potentially devastating to American way of life that 
can get to us within a matter of seconds or minutes or at least 
hours.
    So what type of bright lines can we do with respect to 
gifts, dinners, travel, that would be helpful in giving the 
public confidence that we're not running around selling our 
votes, but we are doing everything we can to get information 
from executives with different types of businesses in terms of 
how they'll be affected by a complicated bill. Nurses and 
doctors when we deal with a hospital issue, or funding 
formulas. These are very complicated. How do we draw those 
bright lines so that Congressmen can actually make intelligent 
decisions, and yet give the American people confidence that 
their Members are not being unduly influenced by relationships 
or dealings that they may have with the folks out in the lobby?
    Mr. Smith. Thank you, Mr. Feeney. Let me start with 
something I was thinking about in the context of Representative 
Van Hollen's last question. One thing that I saw in the bill 
that's moving through the other house is language talking about 
requiring disclosure of fund raisers that lobbyists or others 
may host. And by the way, I echo everything that Mr. Gross said 
on that. But one bit of language in there is something to the 
effect of ``or otherwise sponsored,'' which is the kind of what 
the heck does that mean? Did the person host it or co-host it? 
What's it mean ``or otherwise sponsored?''
    And so I think one of the first things you simply need to 
do is, as you look at language in this bill, look at amendments 
to this bill or amendments that are offered to add to the bill, 
think about each thing, do you know what it means? Do the 
Members sitting up here on this panel feel like they know what 
it means? Are you comfortable that somebody won't accuse you of 
doing something along those lines? I think having the 
disclosure function will serve some role there because it will 
keep things in the public eye, and that always plays a role in, 
I think, making sure that people decide simply not to cut 
corners, and it makes sure that the cases get discussed enough 
if nothing else.
    What happens when law falls into sort of desuetude, is that 
people begins to lose track of what the accepted definitions 
are. So this is a very weak answer, I feel. I don't have a good 
clear one for you. What I would have to say is we need to look 
at specific provisions of the bill, say what is it that you 
want to accomplish, and then look at that exact language and 
make sure that it doesn't have the kind of gray area that can 
be used by an independent prosecutor, essentially, to just 
start going after whomever he or she wants.
    Mr. Feeney. I want to talk about some gray areas. Maybe Ms. 
Pingree is the best--you know, we talk about disclosure for 
people that want to contribute $100 or $1,000 to my campaign, 
but there are entities out there spending hundreds of 
thousands, in fact, millions of dollars, that are very shadowy 
and are not very accountable. One of the things that we've done 
is to disempower the major parties in the country. They've got 
all sorts of limits now and restrictions, what they can accept, 
what they can spend in specific areas, and yet you've got these 
527 groups, after McCain-Feingold, that are totally 
unaccountable. And as the Chairman said, I happen to be victim 
of the same call--although they might have done me a favor--
telling people in my district that I voted for the Medicare 
Bill. In fact, I had voted against the Medicare bill.
    And yet, this group can establish a nice-sounding name, The 
Committee to Save the Children of the World, or whatever. 
Nobody knows who they are. They can start a new corporation for 
every election cycle. There's totally no accountability.
    If the Democratic Party wants to attack Tom Feeney, people 
in my district will take with a grain of salt some of the 
things that they say. Some people will tend to believe what the 
Democratic Party wants to say, some people will tend not to 
believe them. But the 527 loophole is really embarrassing.
    And then finally, Ms. Pingree, if you can also address the 
education loophole. Common Cause, for example, for the first 
time in 100 years, Republicans were in the majority when we did 
redistricting in Florida in 2002. All the Democratic 
leadership, all the Democratic leaders in the House and the 
Senate, all the Democratic Party apparachiks, they opposed what 
we did; naturally, it's a part of the political process.
    Common Cause actually--talk about bundling money--bundled 
money from their Washington affiliate, sent it to their Florida 
affiliate. And so what type of responsibilities do you think 
you have as a so-called educational--I mean in that case Common 
Cause is going up against all of the Republican leadership of 
the House, the Senate, the Governor and the party, and they're 
taking a partisan side, and yet, they tend to be immune from 
the types of constraints that we're trying to put on other 
participants in the process.
    Ms. Pingree. All very good questions, and I'll try to give 
you some answers. First off, on the issue of redistricting in 
Florida, we tackle the questions around redistricting and our 
belief that there should be panels outside of the legislative 
process to make it a nonpartisan process. We do this on a 
nonpartisan basis. We were just as active in California where 
the Democrats didn't like what we were doing, as we were in 
Ohio last year where the Republicans didn't like what we were 
doing. The same in Florida. We believe this is a process issue, 
and we are supported by hundreds of thousands of members from 
around the country, and did our best to disclose where our 
sources of income came from in the State of Florida, and work 
in a seamless way with our State organizations, as well as our 
national organizations.
    On the issue of campaign finance reform, I'd be thrilled to 
come back anytime and talk about a whole variety of issues. I 
think you do make a good point, and others have, about whether 
or not we can solve all the problems of the influence of money 
in politics through regulation, or whether we need to look at 
more publicly financed systems, as we have in Maine and 
Arizona. And I may disagree with Mr. Franks, in Maine, we think 
that's been a very successful process.
    I'd also like to say that, generally, I think on the 
questions that you were asking earlier, we also think that 
there should be some significant change. I know my time is 
running out, but I'd be happy to come back any time and talk 
more thoroughly about some of these other issues.
    Mr. Chabot. The gentleman's time has expired. Did any of 
the other panel members want to touch that?
    [No response.]
    Mr. Chabot. All the Members at this point have asked their 
5 minutes, and so we want to thank the members of the witness 
panel for their testimony here this afternoon. As was 
mentioned, there is a markup on this topic in the full 
Committee tomorrow. You have helped us in many ways in thinking 
about this and considering the ramifications of this 
legislation.
    I want to thank all the Members for their attendance here 
today.
    If there's no further business to come before the 
Committee, we're adjourned. Thank you.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  TESTIMONY OF MARK J. FITZGIBBONS, PRESIDENT OF CORPORATE AND LEGAL 
               AFFAIRS, AMERICAN TARGET ADVERTISING, INC.

                Proposed Grassroots Reporting Regulation
              Far from What Proponents Represent It to Be

    The purpose of this testimony is to refute the public 
justifications of attempts to include regulation of the grassroots as 
part of lobbying reform legislation. I am president of corporate and 
legal affairs of a direct marketing agency specializing in direct mail 
and other means of public policy communications. I thank the 
Subcommittee on the Constitution for the opportunity to submit these 
comments.
    The press releases of some Members of Congress and certain 
proponents of regulating the grassroots as part of congressional ethics 
and lobbying reform tout their attempts as targeted at paid 
professionals and what's been called ``Astroturf'' lobbying 
(professionally created grassroots efforts supporting K Street lobbying 
efforts).
    The stated justifications for regulating the grassroots are not 
true because:

        1. the legislation would apply to speech by small, low-funded, 
        community based causes, even those that rely on volunteers;

        2. those who do not employ Washington lobbyists nor make 
        political contributions would be required to report;

        3. the legislation would make ``accidental'' lobbyists out of 
        those who publish books, blogs and many other publications;

        4. the legislation would result in punishment of innocent 
        political and faith-based speech and publication;

        5. the legislation would actually foster more Jack Ambramoff-
        style corruption.

    Senate-passed legislation (S. 2349, the Lobbying Transparency and 
Accountability Act (LTA)) and sister attempts in the House would likely 
create the most expansive and inclusive regulation of political and 
faith-based speech and publication in history. Intent to publish books 
and blogs would trigger requirements to register and report, and would 
create accidental lobbyists. Such publication would be in violation of 
law unless congressional ``permission'' is obtained. Failures to 
register and report would be punishable as ``committing lobbying'' 
through speech and publication to the general public.
    Even editorials in newspapers, such as the one from the Committee 
to Defend Martin Luther King, the subject of one of the great civil 
rights and First Amendment cases in U.S. history (New York Times v. 
Sullivan, 376 U.S. 254 (1964)), would be regulated and subject to 
quarterly disclosure and reporting to Congress.
    All of the various legislative proposals to regulate the grassroots 
expressly target non-harmful, core political and faith-based speech and 
publication to the general public, which is an unconstitutional 
restraint on First Amendment rights.
    Proposals to regulate the grassroots would amend the Disclosure of 
Lobbying Activities Act, 2 USC 1601 ``et seq.'' (DLA), which was passed 
to regulate professional lobbying conducted in Washington. The DLA 
regulates professional lobbyists retained or employed by clients. In 
addition to regulating what have come to be known as ``K Street'' 
lobbyists, the DLA regulates the in-house lobbying efforts of the many 
associations representing trade and industry groups. Such employees of 
associations are lobbyists under the DLA. 2 USC 1602(5).
    The DLA regulates lobbying defined most simply as (1) lobbying 
``contacts,'' which are oral or written communications with Members of 
Congress, their staff, and certain government agency and White House 
officials (``covered'' government officials) (2 USC 1602(8)), combined 
with (2) lobbying ``activity,'' which is the research, strategy and 
other background support for the lobbying efforts. 2 USC 1602(7).
    A ``lobbyist'' is someone employed by a client, who has more than 
one lobbying contact, and who spends at least 20 percent of his/her 
time on lobbying activities for the client. 2 USC 1602(10). A lobbying 
client is any person or entity who retains professional lobbyists or 
who employs in-house lobbyists. 2 USC 1602(2).
    I shall reference provisions of the Senate-passed bill (S. 2349) 
because legislative proposals in the House have nearly identical 
provisions, and the effects and consequences would be nearly identical 
as well.
    Proposals to regulate the grassroots turn the formula of what is 
``lobbying'' subject to registration and reporting on its head by 
making communications to the public a lobbying ``activity.'' Proposed 2 
USC 1602(7) amended.
    Communications to as few as 500 people would meet the threshold of 
lobbying activity if the communications are intended to ``stimulate'' 
citizens to contact covered government officials to urge policy 
actions. Proposed 2 USC 1602(18)(A) and (B). Communications prepared 
in-house do not need to meet the $25,000 threshold applicable to what 
would be ``grassroots lobbying firms.'' Therefore, communications 
subject to proposed regulation of grassroots lobbying need not be 
prepared by professionals, nor need to come from (or be prepared on 
behalf of) large clients who already retain Washington-based lobbyists.
    The proposals to regulate the grassroots would result in startling 
consequences. Claims that efforts to regulate professional and 
Astroturf lobbying are easily refuted. Examples may best demonstrate 
these conclusions.
     1. Communications Prepared In-House by Small, Community Based 
                                 Causes
    The following example disproves that proposals to regulate the 
grassroots would apply only to professional efforts.

        A local animal rescue operation has a staff of five paid 
        employees and relies mainly on volunteers. They barely makes 
        ends meet, and certainly can't afford to hire a lawyer, let 
        alone pay for a lobbyist. A low-paid staffer in charge of 
        communications and community outreach spends 50% of his time 
        managing their web site and blog. On behalf of the rescue 
        group, he writes two letters to Congress urging Congress to 
        pass an animal protection law. Those are lobbying ``contacts.'' 
        He continues to do research, and heavily promotes the 
        legislation online. That would be lobbying ``activity'' subject 
        to reporting and compliance. Also, he is now a ``lobbyist.'' 
        Failure to track his time, register, and report quarterly to 
        Congress could result in fines up to $100,000. Proposed 2 USC 
        1606 amended.

    These local, community based causes need not spend $25,000 in a 
three-month period to be subject to the lobbying disclosure laws under 
the legislative proposals to regulate so-called ``paid'' grassroots 
communications. The in-house efforts of many such small, community 
based and under-funded causes cannot afford the adverse publicity and 
stigma of violating federal law, but S. 2349 would surely create many 
examples such as this.
     2. Creating ``Accidental'' Lobbyists from Publication of Books
    Not just community-based blogs, but books and other press 
publications can trigger the registration and reporting rules under the 
LTA. For example:

        A doctor affiliated with a medical university specializes in 
        treating autistic children. She discovers a link between 
        instances of autism and a medication used commonly by pregnant 
        and nursing women. She writes to the Food and Drug 
        Administration and several Members of Congress that the 
        medication must either be banned or come with a warning not to 
        be prescribed to pregnant or nursing women. Those are lobbying 
        ``contacts.''

        The pharmaceutical company that manufactures the medication has 
        its lobbyists oppose the doctor's efforts. One congressman 
        writes back telling the doctor that there is not enough 
        evidence to ban the medication.

    As part of her university job, the doctor writes a book about 
autism that also demonstrates the link between the medication and 
autism, and ``influences'' the general public to contact Congress to 
urge a ban on the medication. Publication of that book is a lobbying 
``activity,'' and the doctor is now a ``lobbyist.''

        The university retains and pays a copy editor $25,000 to help 
        the doctor write the book, and retains a publicist who agrees 
        to spend $25,000 over three months publicizing the book. These 
        paid efforts make the copy editor and publicist ``grassroots 
        lobbying firms'' under proposed 2 USC 1602(19), and they must 
        register and report to Congress as such.

        In promoting her book over the next six months, the doctor 
        makes appearances on television and radio talks shows. Since 
        that is part of her salaried employment with the university, 
        these are ``paid'' communications to more than 500 people, thus 
        lobbying ``activity.'' The doctor must log her time, and report 
        the expenses and income from her publicity tour.

      3. Proposals Target More than Astroturf Lobbying, and Will 
                  Promote Washington-Style Corruption
    Regulation of grassroots speech and publication is not only 
unconstitutional, but also would help protect corruption in Washington. 
Regulation would have the effects of blunting and even censoring 
citizen-critics of government through expense of regulation compliance, 
fines and fear of fines. But the following example will help 
demonstrate how such regulation will even foster the culture of 
corruption in Washington.

        The medical university in the example above does not hire 
        lobbyists. The doctors and administration there are politically 
        aloof, and none makes political contributions.

        Lobbyist ``Jack'' has been soliciting the medical university as 
        a client for years, with no success. Jack raises money for many 
        Members of Congress, and has an informal information-sharing 
        arrangement with several. From his home, Jack has an 
        ``unpaid,'' anonymous blog called The Good Citizen, which 
        provides gossip-like information about Washington. The 
        Congressman from the university's district and Jack are angry 
        that the university's administration won't ``pay to play'' the 
        Washington game.

        The Good Citizen blog chooses to take sides with the 
        pharmaceutical company, and opposes the ban on the medication. 
        Since the medical university does not hire lobbyists, neither 
        the administrators nor the autism doctor even thinks that the 
        doctor's book publication activity required them to register 
        under the DLA. The Good Citizen blog reports that the 
        university and doctor are apparently violating the lobbying 
        laws.

        The U.S Attorney sees the blog, investigates and concludes that 
        a violation occurred. No penalties are assessed since this is a 
        first-time violation, but the U.S. Attorney issues a press 
        release that the university and doctor violated the law in 
        urging a ban on the medication. That results in the program 
        losing funding from private sources.

     4. The Grassroots Proposals Would Regulate Faith-Based Speech
    The grassroots provisions would even apply to faith-based 
communications, as the following example demonstrates.

        A Catholic priest has a weekly talk show with a substantial 
        audience. He comes to Washington to meet with White House and 
        congressional leaders. He expresses the Catholic Church's views 
        urging action against stem-cell research legislation and 
        against certain immigration restrictions included in 
        legislation being pushed by the White House. Those are lobbying 
        contacts. In his weekly show, in his sermons, and in written 
        editorials for newspapers and faith-based publications, the 
        priest expresses the Church's views on these faith and policy 
        matters, and ``influences'' his audience to write Congress and 
        urge action consistent with the Church's positions. Those are 
        lobbying activities subject to tracking, registration and 
        reporting with Congress.

    None of the activities in the above-stated examples come anywhere 
near what proponents of grassroots lobbying legislation describe as the 
targeted activity subject to the lobbying reporting and disclosure 
laws.
    The proposed regulation of the grassroots targets low-paid speech 
and publication under $25,000, not the highly paid lobbying efforts 
described by proponents. The legislation would regulate communications 
prepared in-house by those who do not use Washington-based lobbyists 
and who do not make political contributions, thus claims of targeting 
merely high-paid ``Astroturf'' lobbying and those who influence 
elections are false. The legislation would regulate faith-based 
communication, and would even foster more Jack Ambramoff-style 
corruption, while making innocent publication a violation of law for 
``committing lobbying.''
    These attempt to regulate the grassroots manage to turn the 
definition of lobbying on its head by regulating speech and publication 
to the general public, and are unconstitutional. Even in describing so-
called congressional ethics reform, some Members of Congress and 
certain Washington-based special interest proponents of ``reform'' have 
managed to portray their proposals incorrectly. The lobbying reform 
bills must not include efforts to regulate the grassroots.

    Respectfully submitted,

    Mark J. Fitzgibbons
    President of Corporate and Legal Affairs
    American Target Advertising, Inc.
    9625 Surveyor Court, Suite 400
    Manassas, Virginia 20110
    (703) 392-7676, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="204d4649545a474942424f4e5360414d45524943414e5441524745540e434f4d">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
